Memorandum No. D-2010-RAM-004             March 10, 2010




        Repair Air Traffic Control Building 118,
          Naval Air Station Jacksonville, FL
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704
                                 INSPECTOR GENERAL 

                                DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DR IVE 

                              ARLINGTON , VIRG INIA 22202- 4704 



                                                                          MAn 1 a 2010

MEMORANDUM FOR NAVAL INSPECTOR GENERAL,
               COMMANDING OFFICER, NAVAL FACILITIES
                 ENGINEERING COMMAND, SOUTHEAST


SUBJECT: Repair Air Traffic Control Building 118, Naval Air Station Jacksonville, FL
         (Memorandum No. D-2010-RAM-004)

We are providing this report for your information and use . We performed this audit in
response to the requirements of Public Law 111-5, The American Recovery and
Reinvestment Act of2009. We considered management comments on a discussion draft
of the repOli when preparing the final report. No additional comments are required.

We appreciate the courtesies extended to the staff. Please direct questions to Mr. Tim
Wimette at (703) 604-8876 (DSN 664-8876).




                                         Daniel R. Blair, CPA
                                         Principal Assistant Inspector General
                                           for Auditing
Memorandum No. D2010-RAM-004                                                  March 10, 2010


               Results in Brief: Repair Air Traffic Control
               Building 118, Naval Air Station
               Jacksonville, FL

What We Did
Our overall objective was to evaluate DOD’s
implementation of plans for Public Law 111-5,
the American Recovery and Reinvestment Act
of 2009 (Recovery Act), February 17, 2009.
Specifically, we determined whether the Repair
Air Traffic Control Building 118 (ATC Tower)
project was adequately planned to ensure the
appropriate use of Recovery Act funds.

What We Found
We concluded that the Repair ATC Tower
project was a valid requirement. Although we
identified some issues and concerns with
required planning documents not adequately
supporting the justification of the project,
NAVFAC Southeast officials were able to
provide additional information supporting
repairs for the ATC Tower that provided us
reasonable assurance that the project was a valid
requirement. As a result, DOD had reasonable
assurance that use of Recovery Act funds was
appropriate for the project.

What We Recommend
This report contains no recommendations.

Management Comments
The Commander, Naval Station Jacksonville
and NAVFAC Southeast officials agreed with
our results and conclusions in the discussion
draft report. We do not require any additional
comments.

                                                    Air Traffic Control Building 118,
                                                    Naval Air Station Jacksonville, FL
Introduction
Objective
Our overall objective was to evaluate DOD’s implementation of plans for Public Law
111-5, the American Recovery and Reinvestment Act of 2009 (Recovery Act), February
17, 2009. To meet our objective, we assessed the planning of a Recovery Act project to
ensure accountability and transparency. Specifically, we determined whether the Repair
Air Traffic Control Building 118 (ATC Tower) project was adequately planned to ensure
the appropriate use of Recovery Act funds.


Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments to increase economic efficiency by spurring technological advances
in science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public how, when, and where tax dollars
were being spent. Further, the Recovery Act stated that the President and the heads of
Federal departments and agencies were to expend these funds as quickly as possible,
consistent with prudent management.

DOD received approximately $7.4 billion in Recovery Act funds supporting Recovery
Act projects. In March 2009, DOD released its “Expenditure Plans for the American
Recovery and Reinvestment Act of 2009” which lists DOD projects (except for U.S.
Army Corps of Engineers projects and the Homeowners Assistance Fund) that will
receive Recovery Act funds. The Department of the Navy received $1.928 billion in
Recovery Act funds for Operations and Maintenance; Military Construction; and
Research, Development, Test and Evaluation. Table 1 provides specific amounts
allocated to each appropriation.

     Table 1. Department of Navy Program-Specific Recovery Act Appropriations

               Appropriations                                Amount (millions)
Operations & Maintenance                                          $916
Military Construction                                             $937
Research, Development, Test and Evaluation                         $75
Total                                                            $1,928

Of the $1.928 billion appropriated to the Department of the Navy, $3.2 million
(Operation & Maintenance) were appropriated to complete interior and exterior
renovations of Building 118 ATC Tower at the Naval Air Station (NAS), Jacksonville,
Florida.

NAS Jacksonville is a master air and industrial base that provides operational and 

logistical support for U.S. operating and allied forces worldwide, and for more than 100 

tenant activities and other commands. The installation is also home to reconnaissance, 



                                            1

maritime, multi-mission, logistics, passenger, and cargo aircraft. ATC Tower facilities
are required to provide continuous control over all military and civilian landing,
departing, or traversing station air space. Also, the ATC Tower, which houses NAS
Jacksonville personnel and equipment, is required to support personnel and cargo flights
responding to southeast region emergencies. Naval Facilities Engineering Command
(NAVFAC) Southeast developed the repair requirements for the ATC Tower project.


Audit Results
Conclusion
We concluded that the Repair ATC Tower project was a valid requirement. Although we
identified some issues and concerns with required planning documents not adequately
supporting the justification of the project, NAVFAC Southeast officials were able to
provide additional information supporting repairs for the ATC Tower that provided us
reasonable assurance that the project was a valid requirement. As a result, DOD had
reasonable assurance that use of Recovery Act funds was appropriate for the project.
Therefore, this report contains no recommendations.

Summary of Results
While NAVFAC Southeast officials adequately justified and supported the Repair ATC
Tower project, the DD Form 1391 (planning document for proposed projects) and the
economic analysis for the respective project did not provide sufficient justification.
However, during our review NAVFAC Southeast officials were able to provide
additional information justifying the repair of the ATC Tower as a valid Recovery Act
project.

        DD Form 1391. During our review of the June 26, 2009, DD Form 1391, we
noted that the planning document did not fully support the justification for the repair of
the ATC Tower. The proposed repairs included structural repairs; such as replacing the
heating, ventilation and air conditioning system; repairing the electrical system;
refurbishing interior finishes and lighting; and refurbishing exterior finishes. According
to the DD Form 1391, the proposed construction would address the deficiencies
identified in: 1) the structural inspection conducted in November 2005; 2) the Annual
Inspection Summary in March 2007; and 3) a list of necessary upgrades identified by a
Space and Naval Warfare Systems Command team site survey in June 2008. However,
NAVFAC Southeast officials could not provide these inspections or studies for our
review to validate the need for the ATC Tower.

While NAVFAC Southeast officials could not provide us with the aforementioned
documents, officials were able to provide us with an Architectural/Engineering Study –
“Study Phase for Repairs to Air Traffic Control Building 118, Naval Air Station,
Jacksonville, FL”— April 15, 2009, which officials stated supported the justification for
repairing the ATC Tower. The Study addressed work needed to bring the ATC Tower
into compliance with applicable codes and regulations. Also, the Study discussed new
equipment needed to meet requirements established by the National Airspace System
Modernization Program and standards established by Federal Aviation Administration.
Based on our review of the Study, we concluded it adequately supported and justified the
proposed repairs for the ATC Tower.




                                             2

        Economic Analysis. The economic analysis was incomplete and did not fully
support the justification for the Repair ATC Tower project. The NAVFAC Economic
Analysis Handbook, October 1993, states that the economic analysis is a systematic
approach to identify, analyze, and compare costs and benefits of alternative courses of
action to achieve a given set of objectives. A six-step approach is used-define the
objective, generate alternatives, formulate assumptions, determine costs and benefits,
compare costs and benefits and rank alternatives, and perform sensitivity analysis. For
the repair of the ATC Tower project, three of the six steps were not fully assessed in
determining the most efficient and effective use of resources. A more descriptive
narrative for three of these steps––determining costs and benefits, comparing costs and
benefits and rank alternatives, and performing sensitivity analysis–was needed to support
the project’s justification.

Although the economic analysis for the project needed more detailed narrative to identify
that repair of the current facilities was the best alternative, NAVFAC Southeast officials
clarified the need to repair the ATC Tower as the best option. Specifically, NAVFAC
officials stated that there were no viable alternatives, other than new construction, which
was more costly, for bringing the current structure up to Federal Aviation Administration
standards. Therefore, we concluded that the Repair ATC Tower project was a valid
requirement.




                                             3

Appendix. Scope and Methodology
Scope and Methodology. The Recovery Act provided the Department of the Navy
approximately $1.928 billion in funds (Operations & Maintenance, Military Construction,
and Research, Development, Test and Evaluation) for Navy and Marine Corps Projects.
Approximately $3.2 million of Operations & Maintenance funds (Facilities, Sustainment,
Restoration, and Modernization) was provided to support Recovery Act project Repair ATC
Tower located at NAS Jacksonville.

This is one in a series* of reports on the DOD’s implementation of the Recovery Act. This
report addresses the ATC Tower project, valued at $3.2 million. We conducted this audit
from June 2009 to January 2010. We generally complied with Generally Accepted
Government Auditing Standards. However, due to the unique requirements of the Recovery
Act, along with time limitations for executing this audit, we did not fully comply with some
planning and reporting standards. Specifically, we did not fully comply with the planning
standards on the assessment and reduction of fraud risk, and the reporting standards on
internal control deficiencies and the scope of work in relation to the total Recovery Act
project population. We believe omitting some aspects of these standards did not limit our
ability to accurately conclude on our audit objective.

We interviewed NAVFAC Southeast officials. We reviewed documentation including DD
Form 1391, economic analysis, cost estimates, architectural and engineering studies, and
other supporting documentation. We also conducted a site visit to tour the ATC Tower. In
addition, we reviewed Federal, DOD, Navy, and NAVFAC Headquarters guidance and
compared this guidance to our audit results.

Before selecting DOD ARRA projects for audit, the Quantitative Methods and Analysis
Division of the DOD Office of Inspector General analyzed all DOD agency-funded
projects, locations, and contracting oversight organizations to assess the risk of waste,
fraud, and abuse associated with each. We selected most audit projects and locations
using a modified Delphi technique, which allowed us to quantify the risk based on expert
auditor judgment, and other quantitatively developed risk indicators. Initially, we
selected 83 projects with the highest risk rankings; auditors chose some additional
projects at the selected locations. We used information collected from all projects to
update and improve the risk assessment model.

We used additional predictive analytic techniques for 2 other special cases: (1) projects
performed jointly with State National Guard units in the 50 States, and (2) public works
projects funded directly through the U.S. Army Corps of Engineers (USACE). We
factored in workload volume, proposed costs, geographic districts, and USACE districts
and regions in evaluating the relative risk of problems with oversight and completion.




*The DoD Inspector General will issue a separate report on Recovery Act Project No. 65199, Hospital
Alteration, valued at about $27.2 million, at NAS Jacksonville.



                                                   4

We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
employed provided a basis for logical coverage not only of ARRA dollars being
expended, but also of types of projects and types of locations across the Military
Services, Defense agencies, State National Guard units, and public works projects
managed by USACE.




                                           5

